                                   SOCIAL SECURITY

MEMORANDUM


Date:   April 30, 2003

To:     The Commissioner

From: Inspector General

Subject: The Social Security Administration’s Site Reviews of Representative Payees
        (A-13-01-11042)


        The attached final report presents the results of our audit. Our objectives were to
        (1) assess the Social Security Administration’s (SSA) representative payee site review
        methodology, (2) evaluate the sufficiency and reliability of the documentation that
        supports the conclusions and recommendations made during SSA’s site reviews,
        (3) test for compliance with SSA site review requirements, and (4) determine whether
        SSA has taken appropriate follow-up action to ensure identified deficiencies are
        corrected.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                       James G. Huse, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
  ADMINISTRATION’S SITE REVIEWS
    OF REPRESENTATIVE PAYEES

     April 2003   A-13-01-11042




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
Our objectives were to (1) assess the Social Security Administration’ s (SSA)
representative payee site review methodology, (2) evaluate the sufficiency and reliability
of the documentation that supports the conclusions and recommendations made during
SSA’s site reviews, (3) test for compliance with SSA site review requirements, and
(4) determine whether SSA has taken appropriate follow-up action to ensure identified
deficiencies are corrected.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth, or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payees) to receive and manage these
beneficiaries’ payments. SSA conducts site reviews of Rep Payees. The purposes of
the site reviews are to educate Rep Payees about Social Security matters, take a close
look at how beneficiaries’ funds are managed, assess the Rep Payee’s recordkeeping,
interview beneficiaries, and detect and deter fraud and abuse. The site reviews are
conducted to ensure Rep Payee compliance through a face-to-face meeting and
examination of a sample of beneficiary records.

In June 2000, SSA began triennial site reviews of 810 organizational Rep Payees
serving 100 or more beneficiaries, 736 fee-for-service Rep Payees, and 209 individuals
who serve as Rep Payees for 20 or more beneficiaries. SSA completed approximately
536 of these reviews from June 2000 through March 2001. To perform our audit, we
selected 30 of SSA’s completed site reviews.

RESULTS OF REVIEW
•   SSA’s site review methodology should be modified to better ensure Rep Payees are
    using benefits only for the benefit of the beneficiaries. Specifically, the review
    methodology

    -   lacks guidance for evaluating results of the site reviews,

    -   does not specify the number of beneficiaries to be interviewed, and

    -   does not require a review of Representative Payee Reports (RPR).

•   SSA review teams did not always maintain sufficient and reliable documentation to
    support conclusions and recommendations made during the site reviews.

    -   Review teams did not retain site review documentation.


SSA’s Site Reviews of Rep Payees (A-13-01-11042)                                         i
    -   Reviews were incorrectly classified and reported.

•   SSA review teams did not always comply with site review requirements.

    -   The review teams did not review the required number of beneficiary records.

    -   Results of site reviews were not reported to Rep Payees.

    -   Review results were not annotated in the Rep Payee System.

•   SSA review teams did not always determine whether the Rep Payee took action to
    correct deficiencies identified during site reviews.

OTHER MATTER
   Rep Payee Fraud - For one of SSA’s site reviews, the Rep Payee informed SSA it
had discovered problems when preparing for the Social Security review. The Rep
Payee informed SSA that a former employee was suspected of theft of SSA funds.
However, SSA permitted the Rep Payee to determine the extent of employee theft and
accepted the Rep Payee’s findings. Finally, the suspected theft was never reported to
the Office of the Inspector General for investigation.

CONCLUSION AND RECOMMENDATIONS

Our audit identified several areas for SSA to improve its site review methodology; the
sufficiency and reliability of documentation gathered during site reviews; compliance
with its site review requirements; and its follow-up actions when deficiencies are
identified. These weaknesses limit SSA’s ability to determine whether Rep Payees are
using SSA benefits only for the beneficiaries’ benefit.

We recommend that SSA:

1. Develop criteria so review teams can determine whether Rep Payees are
   adequately fulfilling their responsibilities to the beneficiaries they serve.

2. Revise the site review methodology to provide guidance to determine the sufficient
   number of beneficiary interviews that should be completed during site reviews.

3. Modify the site review methodology to require an assessment of the RPR.

4. Ensure appropriate documentation is obtained and maintained to support the
   conclusions and recommendations of the site reviews.




SSA’s Site Reviews of Rep Payees (A-13-01-11042)                                         ii
5. Require the regional offices to verify with Headquarters the type of review
   completed.
   Based on the Agency’s comments (See Appendix B), we agree with the Agency’s
   position that field offices are more experienced in conducting reviews and reporting
   the results of reviews accurately, therefore we deleted this recommendation.

6. Develop oversight mechanisms to ensure compliance with the site review policy.

7. Follow up to ensure identified Rep Payee deficiencies are corrected in a timely
   manner.

AGENCY COMMENTS
SSA generally agreed with our recommendations. However, SSA agreed only in
principle with Recommendation 3 and disagreed with Recommendation 5.

Regarding Recommendation 3, SSA agreed with the idea of considering the importance
of RPRs during site visits. As such, the Agency intends to modify its policy to require
that reviewers ensure Rep Payees do not have outstanding RPRs and stress the
importance of Rep Payees understanding the need for accurate and timely reporting.
SSA also stated requiring an assessment of the RPRs as part of the site review is
unproductive, serves a different purpose, and covers different time periods. Also, SSA
believes the review period covered by the triennial site visits would not coincide with
varying reporting periods on the RPRs.

With respect to Recommendation 5, SSA disagreed, and stated the Agency is in its third
year under the expanded Rep Payee monitoring plan, and field offices are more
experienced in conducting reviews and reporting the results of reviews accurately. In
addition, the Agency stated further improvement of the process will occur with more
experience. See Appendix B for the full text of SSA’s comments.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We believe the Agency’s planned action is desirable and useful. However, we continue
to believe a review of RPRs would be a productive endeavor.

Agency policy states the RPR “is used to monitor how the payee spent and/or saved the
benefits on behalf of the beneficiary, and identify situations where representative
payment may no longer be appropriate or the payee may no longer be suitable.”1 The
review of the RPR would provide useful information in determining whether Rep Payees
are performing their duties in accordance with SSA policies and procedures. In
February 2003, SSA established an electronic imaging system that will image and
electronically store all RPR forms. The imaging system should improve the Agency’s
ability to timely obtain RPRs. SSA should consider using this information when it

1
    Program Operations Manual System, GN 00605.001


SSA’s Site Reviews of Rep Payees (A-13-01-11042)                                          iii
becomes more readily available. We recognize the RPR may cover a different reporting
period than the site review period. However, for a given 12-month period, SSA could
verify the reasonableness of the reported benefits and expenses listed on RPRs to the
Rep Payee’s records.




SSA’s Site Reviews of Rep Payees (A-13-01-11042)                                   iv
                                                         Table of Contents
                                                                                                                      Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................4

Site Review Methodology .....................................................................................4

  •    Methodology Lacked Guidance for Evaluating Results of The Site Reviews ............4

  •    Lack of Guidance Can Result in Insufficient Beneficiary Interviews .........................5

  •    Methodology Did Not Require a Review of Representative Payee Reports..............5

Sufficient and Reliable Documentation to Support Site Reviews .....................6

  •    Review Teams Did Not Retain Site Review Documentation ...................................6

  •    Reviews Were Incorrectly Classified and Reported ...............................................8

Compliance with Site Review Requirements ......................................................9

  •    Review Teams Did Not Review the Required Number of Beneficiary
       Records ............................................................................................................9

  •    Results of Site Reviews Were Not Reported to Rep Payees ................................10

  •    Review Results Were Not Annotated in Representative Payee System.................10

SSA Follow-up Actions for Identified Deficiencies ..........................................11

CONCLUSION AND RECOMMENDATIONS .......................................................13

OTHER MATTER..................................................................................................15

APPENDICES

APPENDIX A–Summary of Beneficiary Interviews for 26 Completed Site Reviews

APPENDIX B–Agency Comments

APPENDIX C–OIG Contacts and Staff Acknowledgments



SSA’s Site Reviews of Representative Payees (A-13-01-11042)
                                                              Acronyms

 OASDI                     Old-Age, Survivors and Disability Insurance
 Rep Payee                 Representative Payee
 RPS                       Representative Payee System
 SSA                       Social Security Administration
 SSI                       Supplemental Security Income
 RPR                       Representative Payee Report




SSA’s Site Reviews of Representative Payees (A-13-01-11042)
                                                                      Introduction
OBJECTIVE
Our objectives were to (1) assess the Social Security Administration’s (SSA)
representative payee site review methodology, (2) evaluate the sufficiency and reliability
of the documentation that supports the conclusions and recommendations made during
SSA’s site reviews, (3) test for compliance with SSA site review requirements, and
(4) determine whether SSA has taken appropriate follow-up action to ensure identified
deficiencies are corrected.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payees) to receive and manage these
beneficiaries’ payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries or Supplemental Security Income (SSI) recipients when it serves the
individual’s best interests. A Rep Payee is required to use the benefits only for the
beneficiaries’1 use and benefit.

Rep Payee’s duties include:

•   Using benefits to meet the beneficiary’s current and foreseeable needs;

•   Conserving and investing benefits not needed to meet the beneficiary’s current
    needs;

•   Maintaining accounting records of how the benefits are received and used;

•   Reporting events to SSA that may affect the individual's entitlement or benefit
    payment amount;

•   Reporting any changes in circumstances that would affect their performance as a
    Rep Payee; and

•   Providing SSA an annual Representative Payee Report accounting for how benefits
    were spent and invested.




1
  The term "beneficiary" is used generically in this report to refer to both OASDI beneficiaries and SSI
recipients.

SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                                1
There are about 5.4 million Rep Payees who manage benefits for about 7.6 million
beneficiaries.

To protect the interest of incapable beneficiaries, SSA implemented an increased
monitoring plan for fee-for-service and volume Rep Payees. The increased monitoring
plan includes the following features.

        6-month Site Visits - SSA visits fee-for-service Rep Payees 6 months after initial
appointment to ensure they fully understand their duties and responsibilities and are on
the “right track” with respect to recordkeeping and reporting.

       Random Reviews - SSA conducts reviews of a random sample (30 percent) of
volume and fee-for-service Rep Payees. These reviews consist of interviews with the
Rep Payees, custodians and beneficiaries. In addition, SSA reviews three beneficiaries’
financial records to determine whether the Rep Payee is complying with SSA’s policies
and procedures.

        Triennial Site Reviews - SSA conducts site reviews for fee-for-service and
volume Rep Payees serving 100 or more beneficiaries.2 In addition, these reviews
include individuals who serve as payee for 20 or more beneficiaries. The purposes of
the site reviews are to educate Rep Payees about Social Security matters, take a closer
look at how beneficiaries’ funds are managed, and detect and deter fraud and abuse.
Site reviews are intended to ensure Rep Payee compliance through a face-to-face
meeting and examination of a sample of beneficiary records. The reviews also include
an assessment of the Rep Payee's recordkeeping and interviews of beneficiaries.

In June 2000, SSA began triennial site reviews of 810 organizational Rep Payees
serving 100 or more beneficiaries, 736 fee-for-service Rep Payees3 and 209 individuals
who serve as Rep Payee for 20 or more beneficiaries. SSA reported it had completed
approximately 536 of these reviews from June 2000 through March 2001. To perform
our audit, we selected 30 of these reviews.

SCOPE AND METHODOLOGY

Our audit covered site reviews completed from June 2000 through March 2001. To
accomplish our objectives, we:

•   Reviewed SSA’s policies and procedures for conducting site reviews of Rep Payees.


2
 SSA has authorized fee-for-service Rep Payees to collect a fee for providing Rep Payee services.
Volume organization Rep Payees serve 100 or more beneficiaries and volume individual Rep Payees
serve 20 or more beneficiaries.
3
 To qualify as a fee-for-service Rep Payee, the Rep Payee must be (1) a community based, nonprofit
social service agency or organization that is bonded or licensed in the State in which they serve; or a
State or local Government agency with responsibility for income maintenance, social service, health care,
or fiduciary responsibilities; (2) regularly serving at least five beneficiaries; and (3) not a creditor of the
beneficiary.

SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                                   2
•   Obtained from SSA a listing of site reviews completed from June 2000 through
    March 2001.

•   Selected a random sample of 30 site reviews that SSA reported as completed from
    June 2000 through March 2001. However, we only examined 26 site reviews
    completed by SSA because SSA incorrectly classified and/or reported 4 of the
    30 site reviews selected. See the Results of Review section of this report for further
    discussion of this issue.

•   For each of the 26 completed reviews, we reviewed documentation to determine
    whether SSA

        -   selected and reviewed appropriate samples of beneficiaries,
        -   interviewed Rep Payees and beneficiaries,
        -   reviewed beneficiaries’ financial records,
        -   contacted vendors who provided goods and services,
        -   sent Rep Payees “close-out” letters,4
        -   followed up on deficiencies identified during reviews,
        -   completed Site Review Checklists5, and
        -   properly annotated results of the reviews in the Representative Payee System
            (RPS).

•   Observed SSA conducting two site reviews: one in Morgantown, West Virginia, and
    one in San Antonio, Texas.

•   We did not independently determine whether SSA properly identified all Rep Payee
    deficiencies. Therefore, we make no assertion that SSA’s site reviews are achieving
    their intended goal.

We performed our audit in Baltimore, Maryland; Morgantown, West Virginia; and
San Antonio, Texas, from June 2001 through June 2002. The entities audited were
SSA’s Offices of Disability and Income Security Programs and Operations. We
conducted our audit in accordance with generally accepted government auditing
standards.




4
  A close-out letter advises the Rep Payee of any deficiencies detected and what actions are needed to
correct them. In addition, the letter provides target dates and followup to ensure the deficiencies are
corrected.
5
 The Site Review Checklist is a document used to collect information, such as the number of
beneficiaries served, the number of staff, the flow of receipts and disbursements, and the accounting
system, used by the Rep Payee.

SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                               3
                                                Results of Review
Our audit showed that:

•     SSA’s site review methodology should be modified to better ensure Rep Payees are
      using benefits only for the benefit of the beneficiaries.

•     SSA review teams did not always retain sufficient and reliable documentation to
      support conclusions and recommendations made during the site reviews.

•     SSA review teams did not always comply with site review requirements.

•     SSA review teams did not always determine whether the Rep Payee took action to
      correct deficiencies identified during site reviews.

SITE REVIEW METHODOLOGY

SSA site review policy6 provides an overall methodology for conducting site reviews of
Rep Payees. Policy requires that an interview/meeting be held with the administrators
of the Rep Payee organization. In addition, a review must be completed of accounting
records for the past year for a sample of beneficiaries. After reviewing the accounting
records, beneficiaries should be interviewed. The beneficiary interviews are conducted
to determine whether beneficiaries’ needs are being met and to determine whether they
are experiencing problems with the Rep Payee.

Methodology Lacked              SSA’s site review policy states that the basic goal of
Guidance for Evaluating         the site review is to determine whether the Rep Payee
Results of the Site Reviews     (1) continues to be qualified and (2) is performing
                                “good Rep Payee services.” However, policy neither
provides guidance for evaluating the Rep Payee qualifications nor discusses what are
considered as “good Rep Payee services.”

Our audit showed that SSA review teams identified problems with the Rep Payees’
financial records and/or services provided to beneficiaries. For example, problems were
found for 10 of the 26 site reviews we examined. During these reviews, SSA identified

-     five Rep Payees that did not maintain records of beneficiary expenses,

-     five Rep Payees that did not report events that affected beneficiary eligibility,

-     two Rep Payees that did not have proper titling of bank accounts, and

-     one Rep Payee that improperly used one beneficiary’s funds to pay for another
      beneficiary’s expenses.

6
    EM-0072, Increased Monitoring of Fee-for Service and Volume Representative Payees.

SSA’s Site Reviews of Representative Payees (A-13-01-11042)                               4
The SSA review team took no actions to identify the extent or seriousness of the
identified problems. In cases where Rep Payees did not maintain any records of
beneficiary expenses, there is a risk of benefits payment misuse the SSA review team
should evaluate and address. The lack of policy guidance may have impacted the
review team’s ability to effectively evaluate an existing deficiency.

Until SSA develops criteria for evaluating the results of the site reviews, the review
teams cannot properly evaluate Rep Payees’ performance, which may allow Rep
Payees to be retained who are not providing adequate service.


Lack of Guidance Can To properly determine whether beneficiaries’ needs are being
Result in Insufficient   met, a sufficient number of beneficiaries should be
Beneficiary Interviews interviewed. SSA’s site review policy requires that interviews
                         be conducted with a sample of beneficiaries. The interviews
can be conducted over the telephone or in person. However, SSA’s policy does not
specify the number of beneficiaries to interview.

For those Rep Payees managing benefit payments for a small number of beneficiaries,
a small number of interviews may be appropriate. However, SSA’s methodology should
provide guidance to determine a sufficient number of interviews to conduct during site
reviews depending on the number of beneficiaries served by the Rep Payees. Because
SSA does not specify the number of beneficiary interviews, the review teams are not
receiving adequate feedback from the beneficiaries about the services provided by the
Rep Payee.

Based on our examination of documentation of the completed site reviews and
observation of teams conducting these reviews, the review teams were unsure about
the number of beneficiaries to interview. Review team members also explained that
they often were unable to contact beneficiaries because of the limited amount of time
(usually 2-3 days) in which the reviews were performed. Consequently, we found that
some review teams interviewed fewer beneficiaries than others.

For the completed site reviews we examined, the number of beneficiaries in the Rep
Payees’ care ranged from 10 to 742. During 1 review, SSA interviewed 3 beneficiaries
for a Rep Payee who received and managed benefit payments for 664 beneficiaries.
Furthermore, 2 beneficiaries were interviewed during the site review of a Rep Payee
who had 400 beneficiaries in its care. See Appendix A for a summary of the 26 site
reviews we examined.

                               One method SSA uses to monitor Rep Payees is the
Methodology Did Not            Representative Payee Report (RPR). The RPR is intended
Require a Review of            to assist SSA in determining the (1) use of benefits during
Representative Payee           the preceeding 12-month reporting period, (2) Rep Payee’s
Reports                        continued suitability, and (3) continued need for
                               representative payment.7 Depending on the responses on

7
    SSA, Program Operations Manual System, GN 00605.066, GN 00605.067, GN 00605.090,
    GN 00605.221.

SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                  5
the RPR, SSA may contact the Rep Payee to determine continued suitability.

SSA’s site review policy requires that the review team discuss with the Rep Payee its
responsibilities to complete and send RPRs to SSA in a timely manner. However, the
policy does not require that the review teams determine whether the Rep Payee is
properly completing the RPR. If the site review policy required a review of the RPRs,
the amounts reported on the RPR could be compared to the amounts reflected in the
Rep Payee’s financial records to determine whether Rep Payees are properly reporting
on the use of SSA benefits. There was no indication that SSA reviewed any RPRs for
the 26 completed site reviews in our sample.

For the 26 completed site reviews, we requested that SSA provide the number of
(1) RPRs the Rep Payees should have completed and returned and (2) RPRs actually
completed and returned. In response to our request, SSA did not, or was unable to,
provide us the requested information for 18 of the site reviews. For the remaining 8 site
reviews, SSA provided information based on estimates.

Because SSA does not require a review of RPRs during its site reviews, it is missing an
opportunity to determine the accuracy of information it relies on to monitor Rep Payees.

SUFFICIENT AND RELIABLE DOCUMENTATION TO SUPPORT SITE
REVIEWS
Standards for Internal Control in the Federal Government, states that transactions
should be promptly recorded to maintain their relevance and value to management in
controlling operations and making decisions. Control activities help to ensure that all
transactions are completely and accurately recorded. Internal control and all
transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination. Furthermore, all
documentation and records should be properly managed and maintained.8

Review Teams Did Not            The purposes for maintaining documentation for site
Retain Site Review              reviews is to train new review team members, provide
Documentation                   background information for review teams performing
                                future site reviews, and support the conclusions and
recommendations made during the site review. If documentation is not maintained, the
review teams have no data to support conclusions about whether Rep Payees are
properly performing their responsibilities.

During our review, we found that SSA’s site review policy9 did not provide guidance to
review teams on the retention of site review documentation. As part of our audit, we


8
 General Accounting Office, GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal
Government, November 1999.
9
    EM-0072, Increased Monitoring of Fee-for Service and Volume Representative Payees.

SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                     6
requested SSA to provide us supporting documentation for the 26 completed site
reviews. Our audit showed that SSA did not retain the following documentation.

•    List of Beneficiaries in the Rep Payee’s Care – Before the visit with the Rep
     Payee, the review team is required to obtain an RPS list of all the beneficiaries in the
     Rep Payee’s care. This information is then used to select a sample of beneficiaries
     for review and verify if benefits are being paid to the Rep Payee. Our audit showed
     that SSA review teams did not retain RPS lists to show the number of beneficiaries
     in the Rep Payee’s care at the time of the review for 15 (58 percent) of the
     26 reviews.

•    SSA Records of Benefits Paid – After selecting a sample of beneficiaries for
     review, the review team is required to obtain SSA’s records10 of benefits paid to the
     Rep Payee for each beneficiary selected. This information is then used to identify
     payments for review and to determine whether the Rep Payee’s financial records of
     benefit receipts agree with the benefits paid by SSA. Our audit showed that SSA
     review teams did not retain the SSA records of benefits paid for 312 (68 percent) of
     the 462 beneficiary payment records reviewed.

•    Representative Payee Site Visit Worksheets – The review team is required to
     document its review of how beneficiary funds were used for each beneficiary
     selected for review. The Representative Payee Site Visit Worksheets document
     SSA’s review of beneficiary receipts and disbursements during a 12-month period
     for each sampled beneficiary. If the Worksheets are not maintained, it cannot be
     determined whether the review team examined and verified the financial records for
     each beneficiary. Our audit showed that SSA review teams did not retain the
     Representative Payee Site Visit Worksheets for 345 (79 percent) of the
     437 beneficiaries reviewed.

•    Representative Payee Site Visit Client Account Reconciliation – The review
     team is required to reconcile the beneficiary account balances according the Rep
     Payee’s financial records with the account balances according the Rep Payee’s
     bank. The site review policy requires that the reconciliation be documented on the
     Representative Payee Site Visit Client Account Reconciliation form. Our audit
     showed that SSA review teams did not retain the form for 343 (78 percent) of the
     437 beneficiaries reviewed.

For the 26 site reviews, SSA retained all of the Rep Payees. However, there was
insufficient documentation to show that SSA review teams properly completed critical
elements of the site reviews. Specifically, documentation to support whether SSA
review teams

     •   identified all beneficiaries in the Rep Payee’s care;

     •   determined whether benefits SSA paid agreed with benefits the Rep Payee
         received;
10
  The SSA payment records that are supposed to be obtained are Master Beneficiary Records,
Supplemental Security Income Records and Payment History Update Records.
SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                  7
   •   determined whether Rep Payees properly used beneficiaries’ funds; and
   •   determined the accuracy of beneficiaries’ conserved funds.

Therefore, we could not independently determine whether the results of the SSA review
teams supported SSA’s assessment of the Rep Payee performance and/or its decision
to retain the Rep Payees.

Reviews Were                Because of recent concerns with SSA’s Representative
Incorrectly Classified      Payment Program, SSA prepares quarterly reports to
and Reported                Congress to show its efforts to improve the Representative
                            Payment Program. The reports include information on the
status of the SSA’s triennial site review program. For example, SSA reports the number
of triennial site reviews completed during the reporting period and the total reviews
completed to date. The reports also provide information on other types of Rep Payee
reviews that SSA completed during the same reporting period.

For the sample of triennial site reviews we examined, we found three reviews were
incorrectly classified. Regional offices incorrectly classified two random reviews and
one 6-month site visit as triennial site reviews. These reviews were subsequently
incorrectly reported to Congress as site reviews. We also found that the status of
another site review was incorrectly reported to Congress. The status of the review was
reported as completed when in fact the review was suspended (see Other Matter).

Of the 30 triennial site reviews we initially intended to examine, 4 (13 percent) were
incorrectly reported to Congress. The inaccurate reporting occurred because there is
no verification and review of the accuracy of information submitted by the review teams.
As a result, SSA reported inaccurate information to Congress.




SSA’s Site Reviews of Representative Payees (A-13-01-11042)                              8
COMPLIANCE WITH SITE REVIEW REQUIREMENTS
Our audit identified three weaknesses with SSA’s management controls that are
intended to ensure that site reviews are performed in compliance with the site review
requirements.

Review Teams Did Not            Site review policy requires that the review team select a
Review the Required             sample of beneficiary records to be reviewed. The policy
Number of Beneficiary           suggests that a 10-percent sample be selected, with a
Records                         minimum of 10 cases and a maximum of 25 cases.
                                Based on our review of the site review documentation, we
determined 11 of the 26 site reviews did not sample the required number of beneficiary
records, and 3 of the 26 reviews did not provide documentation of the sample reviewed.
The individual results for the 14 site reviews are as follows.

                       Table 1. Samples of Beneficiaries Records

  Type of Rep Payee and Region          Required Sample Size Sample Size Reviewed

Fee-for-Service (Atlanta)                          25                       17

Fee-for-Service (Boston)                           18                       7

Volume (Chicago)                                   25                       5

Fee-for-Service (Chicago)                          21                       19

Volume (Dallas)                                    11                       9

Volume (Denver)                                    25                       2

Volume (Kansas City)                               25                       12

Volume (New York)                                  20               No Documentation

Volume (New York)                                  23               No Documentation

Fee-for-Service (Philadelphia)                     10                       3

Fee-for-Service (Philadelphia)                     10                       9

Volume (Seattle)                                   16               No Documentation

Fee-for-Service (Seattle)                          10                       9

Individual (Seattle)                               10                       7
If the review teams do not review the required number of beneficiary records, they will
not have sufficient evidence to determine whether beneficiaries’ funds are properly
managed and to detect and deter fraud and abuse.

SSA’s Site Reviews of Representative Payees (A-13-01-11042)                               9
Results of Site            At the conclusion of site reviews, the review teams are
Reviews Were Not           required to prepare a close-out letter to Rep Payees. The
Reported to Rep            letter advises the Rep Payee of any deficiencies detected
Payees                     and what actions are needed to correct them. In addition,
                           the letter provides target dates and SSA follow-up actions to
ensure the deficiencies are corrected.

Of the 26 site reviews we examined, the review teams did not provide a close-out letter
to 12 of the Rep Payees. In 4 of these 12 site reviews, SSA identified the following
deficiencies:

     •   poor recordkeeping system;
     •   improper titling of bank accounts;
     •   non-reporting of beneficiaries who exceed the SSI resource limit;
     •   non-return of conserved funds to SSA; and
     •   incomplete maintenance of documentation for expenditures on the beneficiaries’
         behalf.

When the review teams do not provide the close-out letter, the Rep Payee may be
unaware of problems that may exist and the need for corrective actions.


Review Results          To assist in investigations of the suitability of Rep Payee
Were Not                applicants, the Social Security Act11 requires that SSA develop
Annotated in            and maintain a centralized system identifying Rep Payees and
Representative          the beneficiaries they serve. As a result, SSA created RPS.
Payee System            The RPS is an automated system for entering and retrieving
                        information about Rep Payees and Rep Payee applicants. The
RPS also maintains information about beneficiaries in the Rep Payee’s care and the
relationship between Rep Payees and beneficiaries.

SSA’s Site Review Policy requires that review teams annotate the RPS with a brief
statement about the results of the site review, including the date of the review and any
significant findings. However, we found that 15 (58 percent) of the 26 site reviews we
examined were not annotated in the RPS. In addition, 8 (31 percent) of the 26 site
reviews were not annotated in RPS within 30 days upon completion of the site review.




11
 42 U.S.C. § 405(j)(3)(E).
SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                10
                        Timeliness of Results in RPS

                                   11%
                           31%               58%                           No Entry
                                                                           Late Entry
                                                                           Timely Entry




SSA FOLLOW-UP ACTIONS FOR IDENTIFIED DEFICIENCIES
SSA’s site review policy requires that identified deficiencies be corrected timely.
Specifically, it states “…the review team is required to prepare a closeout letter advising
the Rep Payee of any deficiencies detected and what actions are needed to correct
them. Also, the review team is required to provide target dates and follow-up to ensure
the deficiencies are corrected.”

We found that review teams identified deficiencies for nine of the Rep Payees. These
deficiencies included

    -   improper titling of bank accounts;

    -   untimely reporting of SSI recipients with resources over $2,000; and

    -   failure to maintain receipts for purchases made on behalf of beneficiaries.

We found that review teams did not perform follow-up activities for eight of the nine Rep
Payees to determine whether corrective action was taken and if the action taken was
completed by the target date.

•   An SSA site review of a Rep Payee found recipients who had accounts above the
    SSI resource limit and recommended that the Rep Payee consider using burial
    accounts. The review was completed in September 2000; however, as of
    April 2002, SSA had not taken any follow-up action to ensure the problem was
    corrected. We brought this to SSA’s attention; however, as of February 14, 2003,
    SSA had not informed us of whether it had completed corrective follow-up actions.

•   SSA instructed a Rep Payee to correct the titling of bank accounts, decentralize its
    system of accounting for clients’ funds and report events timely to SSA. The close-
    out letter informed the Rep Payee to make these corrections by May 1, 2001. SSA
    reported to us that it had completed corrective follow-up actions on April 25, 2002.
    However, because this occurred after we completed our field work, we did not
    independently verify whether this occurred.
SSA’s Site Reviews of Representative Payees (A-13-01-11042)                              11
•   An SSA review team found that the Rep Payee did not maintain copies of receipts
    for purchases made on the beneficiaries’ behalf. The review was completed in
    January 2001. However, as of April 2002, SSA had not taken any follow-up action to
    ensure the Rep Payee had complied with its recommendation. As a result of our
    audit, SSA reported to us that it completed corrective follow-up actions in
    December 2002. However, because this occurred after we completed our field work,
    we did not independently verify whether this occurred.

•   An SSA review team recommended follow-up for reporting of SSI beneficiaries with
    resources over $2,000, reporting of interest income, and review of reporting
    responsibility to SSA. The site review was completed in August 2000. However, as
    of April 2002, SSA had taken no follow-up actions to ensure corrections were
    implemented. SSA reported to us that it had completed corrective follow-up actions
    in September 2002. However, because this occurred after we completed our field
    work, we did not independently verify whether this occurred.




SSA’s Site Reviews of Representative Payees (A-13-01-11042)                         12
                                                    Conclusion and
                                                  Recommendations
Our audit identified several areas for SSA to improve its site review methodology; the
sufficiency and reliability of documentation gathered during site reviews; compliance
with its site review requirements; and its follow-up actions when deficiencies are
identified. These weaknesses limit SSA’s ability to determine whether Rep Payees are
using SSA benefits only for the beneficiary’s benefit.

We recommend that SSA:

1. Develop criteria so review teams can determine whether Rep Payees are
   adequately fulfilling their responsibilities to the beneficiaries they serve.

2. Revise the site review methodology to provide guidance to determine the sufficient
   number of beneficiary interviews that should be completed during site reviews.

3. Modify the site review methodology to require an assessment of the RPR.

4. Ensure appropriate documentation is obtained and maintained to support the
   conclusions and recommendations of the site reviews.

5. Require the regional offices to verify with Headquarters the type of review
   completed.
   Based on the Agency’s comments (See Appendix B), we agree with the Agency’s
   position that field offices are more experienced in conducting reviews and reporting
   the results of reviews accurately, therefore we deleted this recommendation.

6. Develop oversight mechanisms to ensure compliance with the site review policy.

7. Follow up to ensure identified Rep Payee deficiencies are corrected in a timely
   manner.

AGENCY COMMENTS
SSA generally agreed with our recommendations. However, SSA agreed only in
principle with Recommendation 3 and disagreed with Recommendation 5.

Regarding Recommendation 3, SSA agreed with the idea of considering the importance
of RPRs during site visits. As such, the Agency intends to modify its policy to require
that reviewers ensure Rep Payees do not have outstanding RPRs and stress the
importance of Rep Payees understanding the need for accurate and timely reporting.
SSA also stated requiring an assessment of the RPRs as part of the site review is
unproductive, serves a different purpose, and covers different time periods. Also, SSA
believes the review period covered by the triennial site visits would not coincide with
varying reporting periods on the RPRs.
SSA’s Site Reviews of Representative Payees (A-13-01-11042)                             13
With respect to Recommendation 5, SSA disagreed, and stated the Agency is in its third
year under the expanded Rep Payee monitoring plan, and field offices are more
experienced in conducting reviews and reporting the results of reviews accurately. In
addition, the Agency stated further improvement of the process will occur with more
experience. See Appendix B for the full text of SSA’s comments.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We believe the Agency’s planned action is desirable and useful. However, we continue
to believe a review of RPRs would be a productive endeavor.

Agency policy states the RPR “is used to monitor how the payee spent and/or saved the
benefits on behalf of the beneficiary, and identify situations where representative
payment may no longer be appropriate or the payee may no longer be suitable.”12 The
review of the RPR would provide useful information in determining whether Rep Payees
are performing their duties in accordance with SSA policies and procedures. In
February 2003, SSA established an electronic imaging system that will image and
electronically store all RPR forms. The imaging system should improve the Agency’s
ability to timely obtain RPRs. SSA should consider using this information when it
becomes more readily available. We recognize the RPR may cover a different reporting
period than the site review period. However, for a given 12-month period, SSA could
verify the reasonableness of the reported benefits and expenses listed on RPRs to the
Rep Payee’s records.




12
     Program Operations Manual System, GN 00605.001




SSA’s Site Reviews of Representative Payees (A-13-01-11042)                         14
                                                                    Other Matter
Rep Payee Fraud

In performing our audit, we identified one site review where we believe SSA did not
meet its responsibilities to detect and deter fraud and abuse by a Rep Payee.
Specifically, we learned that SSA initiated a site review of a Rep Payee in
January 2001. Before SSA’s planned visit, the Rep Payee management informed SSA
that they had discovered problems when preparing for the Social Security review of
beneficiary records. Specifically, they informed SSA that a former employee was
suspected of theft of SSA funds.

SSA’s initiated its site review and identified the following problems.

   -   Sloppy financial recordkeeping.

   -   No computer records of the monthly balance sheets for 2 months.

   -   Prior month ending balances did not match the beginning balances for the
       following month.

   -   Beneficiary expenses were reflected in the computer files, but there was no
       supporting documentation of the recorded expenses.

   -   Receipts to show how the monies were spent were missing.

   -   The former employee was receiving and paying requests without an authorization
       from a supervisor.

   -   Authority to approve beneficiary expenditures was not defined in the policies of
       the Rep Payee.

SSA discussed the preliminary findings with the Rep Payee management. Given the
condition of the records, SSA suspended its site review until the extent of the problems
could be identified and corrected. Although the review was suspended and not
completed, it was reported as a completed review to Congress.

SSA’s subsequent handling of the suspected theft of beneficiary funds raises the
following concerns.




SSA’s Site Reviews of Representative Payees (A-13-01-11042)                               15
       SSA Permitted the Rep Payee to Perform the Review - In February 2001, the
Rep Payee provided SSA its plan of action to identify the amount of employee theft.
SSA accepted the Rep Payee’s plan and allowed it to perform the review of itself. The
Rep Payee subsequently reported to SSA that a former employee was mishandling
beneficiary funds. The Rep Payee agreed to refund approximately $43,000 to the
affected beneficiaries.

       SSA Accepted the Rep Payee’s Findings - Although documentation and
receipts for expenditures were missing, the Rep Payee determined the discrepancies
were a result of poor recordkeeping, monitoring and lack of oversight and controls. The
Rep Payee confirmed that the employee mishandled beneficiary funds and agreed to
refund all monies to the affected beneficiaries. SSA accepted the Rep Payee’s findings,
and upon completion of corrective actions, SSA has retained the Rep Payee. SSA
subsequently informed us that it verified that the Rep Payee refunded the $43,000 to
the affected beneficiaries.

       Suspected Theft Was Never Reported to the Office of the Inspector General
for Investigation – The Inspector General Act states that it is the Inspector General’s
duty and responsibility to conduct, supervise, and coordinate investigations relating to
the Agency’s programs and operations. In support of the Inspector General’s duties
and responsibilities, SSA policy states that SSA must develop all allegations of Rep
Payee misuse and forward cases of potential criminal violation to the Office of the
Inspector General. At no time during the review did SSA inform the Office of the
Inspector General of the suspected theft of beneficiary funds. As a result, individuals
who may have committed theft can not be charged with theft of government funds. In
addition, since SSA accepted of Rep Payee’s findings it would be very difficult to
prosecute anyone. SSA’s actions also provided the Rep Payee the opportunity to alter
or destroy incriminating evidence.




SSA’s Site Reviews of Representative Payees (A-13-01-11042)                           16
                                           Appendices




SSA’s Site Reviews of Representative Payees (A-13-01-11042)
                                                                     Appendix A
Summary of Beneficiary Interviews for 26 Completed
Site Reviews
     Number of Beneficiaries in Care         Number of Beneficiary Interviews

                     742                                      4
                     664                                      3
                     425                                      3
                     400                                      2
                     361                                     25
                     314                                      4
                     265                                   None*
                     230                              No documentation
                     225                                      3
                     206                              No documentation
                     195                              No documentation
                     175                                      1
                     158                              No documentation
                     156                              No documentation
                     152                                      3
                     148                                      4
                     130                              No documentation
                     114                                      1
                     100                                      3
                     72                               No documentation
                     32                                       2
                     30                                       5
                     25                                      10
                     25                                       2
                     22                                       2
                     10                                       2

*Beneficiary interviews were not conducted because beneficiaries were under 18 years
of age.




SSA’s Site Reviews of Representative Payees (A-13-01-11042)
                                                              Appendix B

Agency Comments




SSA’s Site Reviews of Representative Payees (A-13-01-11042)
                                           SOCIAL SECURITY


MEMORANDUM                                                                           31162-24-774


Date:      March 21, 2003                                                            Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s Site
           Reviews of Representative Payees” (A-13-01-11042)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Trudy Williams on extension 50380.

           Attachment:
           SSA Response




           SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                      B-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON
THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S SITE REVIEWS OF
REPRESENTATIVE PAYEES” (A-13-01-11042)


Thank you for the opportunity to review and comment on the subject draft report. The following
are our comments to the specific recommendations:

Recommendation 1

SSA should develop criteria so review teams can determine whether Rep Payees are adequately
fulfilling their responsibilities to the beneficiaries they serve.

Comment

We agree. We will provide criteria for review teams when we release new Program Operations
Management System (POMS) instructions for site reviews in
GN 00605. We expect to have an Intercomponent Review Draft of these site review instructions
ready for comment later this year. Specific criteria would provide a consistent method of
measuring a payee’s performance.

In addition, as reviewers gain more experience with the review procedures, the review results
presentations become more polished. SSA has issued instructions explaining the procedures
including instructions not cited by the OIG in footnote 9, on page 7, such as EM-00170. This
EM contains SSA instructions governing random payee reviews, another initiative under the
expanded monitoring program, which provide additional oversight for monitoring payee
performance.

Recommendation 2

SSA should revise the site review methodology to provide guidance to determine the sufficient
number of beneficiary interviews that should be completed during site reviews.

Comment

We agree. We will clarify our instructions to provide such guidance when we release the new
POMS instructions by December 31, 2003.

The POMS instructions provide guidelines for determining the number of interviews to complete
during the review as well as guidance for determining when to consider performing a greater or
lesser number.




SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                     B-2
Recommendation 3

SSA should modify the site review methodology to require an assessment of the Representative
Payee Reports (RPRs).

Comment

We agree in principle with the idea of considering the importance of RPRs during site visits. We
will add to the POMS: 1) a requirement for reviewers to make sure that the Rep Payee does not
have any late RPRs outstanding; and 2) a statement that reviewers stress the importance that Rep
Payees understand the need for accurate and timely payee reporting. However, requiring an
assessment of RPRs as part of the site review would be unproductive since site reviews and
RPRs serve different purposes and cover different time periods.

Site reviews ensure that a Rep Payee is adequately performing the duties and responsibilities, is
expending the beneficiaries’ funds appropriately, and keeps adequate records for the review
period, which is the 1 year period preceding the month of the site review. The site visits also
include a beneficiary interview feature. The RPR is a 2-page, self-reporting document sent
annually to all payees. This paper process does not include the in-depth review and verification
procedures that the site visits afford. Further, the review period covered by the triennial site
visits would not coincide with varying reporting periods on the RPRs.

Recommendation 4

SSA should ensure appropriate documentation is obtained and maintained to support the
conclusions and recommendations of the site reviews.

Comment

We agree. We will ensure appropriate documentation is obtained and maintained to support the
conclusions and recommendations of the site reviews.

Retention of the documentation will provide background for the next scheduled review.

Recommendation 5

SSA should require the regional offices to verify with Headquarters the type of review
completed.

Comment

We do not believe this recommendation is necessary. As stated earlier, the OIG review was
conducted the first year of the expanded monitoring plan. Reviewers experienced some
confusion when reporting the type of review resulting in incorrect reporting of reviews as
random rather than full reviews and vice versa. We are now in our third year under the expanded
monitoring plan, and field offices are more experienced in conducting and reporting the reviews
accurately on the Intranet site.
SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                    B-3
We believe that further improvement in the process will occur with more experience.

Recommendation 6

SSA should develop oversight mechanisms to ensure compliance with the site review policy.

Comment

We agree. The current oversight is limited to a review in the regional offices to ensure that the
review and recommendations are consistent with POMS. More thorough guidance in the POMS
would allow for better oversight.

Recommendation 7

SSA should follow up to ensure identified Rep Payee deficiencies are corrected in a timely
manner.

Comment

We agree. We will strengthen the instructions concerning follow-ups when we issue the new
POMS instructions.

We must make a concerted effort to follow up on recommendations given to organizations. The
“Onsite Review Guide for Organizational Payees” was issued to field offices in May 2000 and
contained instructions for advising the payee about any deficiencies found and following up with
the payee after the report date to ensure corrective action had been taken.




SSA’s Site Reviews of Representative Payees (A-13-01-11042)                                   B-4
                                                                        Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   James J. Klein, Audit Manager, (410) 965-9739


Acknowledgments

In addition to the persons named above:

   Linda A. Webester, Auditor-in-Charge

   Kimberly Beauchamp, Writer/Editor



For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-01-11042
                              DISTRIBUTION SCHEDULE

Commissioner of Social Security
Management Analysis and Audit Program Support Staff, OFAM
Inspector General
Team Leaders
Income Maintenance Branch, Office of Management and Budget
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
President, National Council of Social Security Management Associations,
  Incorporated
Treasurer, National Council of Social Security Management Associations,
  Incorporated
Social Security Advisory Board
AFGE General Committee
President, Federal Managers Association
Regional Public Affairs Officer
                     Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
